<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-310]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-310
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


                         S. 325      S. 1305
                         S. 860      S. 1758
                         S. 990      S. 1882
 


                               __________

                             JUNE 26, 2019

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
37-807                WASHINGTON : 2021         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                    Subcommittee on Water and Power

                        MARTHA McSALLY, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
BILL CASSIDY                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
LAMAR ALEXANDER


                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Lane Dickson, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
McSally, Hon. Martha, Subcommittee Chairman and a U.S. Senator 
  from Arizona...................................................     1
Cortez Masto, Hon. Catherine, Subcommittee Ranking Member and a 
  U.S. Senator from Nevada.......................................     2
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                                WITNESS

Weaver, Kiel, Principal Deputy Assistant Secretary for Water and 
  Science, U.S. Department of the Interior.......................     3

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agri Industries:
    Letter for the Record........................................    53
Audubon Nebraska:
    Letter for the Record........................................    21
Audubon Rockies:
    Letter for the Record........................................    22
Aurora (Colorado) Water:
    Letter for the Record........................................    24
Central Platte Natural Resources District:
    Letter for the Record........................................    26
City of Cheyenne (Wyoming) Board of Public Utilities:
    Letter for the Record........................................    28
Colorado Water Congress:
    Statement for the Record.....................................    29
Colorado Department of Natural Resources:
    Letter for the Record........................................    30
Cooney, Hon. Mike:
    Letter for the Record........................................    54
Cortez Masto, Hon. Catherine:
    Opening Statement............................................     2
Crane Trust:
    Letter for the Record........................................    32
Diamond J Construction LLC:
    Letter for the Record........................................    55
Fort Belknap Indian Community:
    Letter for the Record........................................    56
Gordon, Hon. Mark, Hon. Jared Polis, and Hon. Pete Ricketts:
    Letter for the Record........................................    34
Goshen Irrigation District:
    Letter for the Record........................................    36
Hill Irrigation District:
    Letter for the Record........................................    37
Laney, John:
    Letter for the Record........................................    58
Lang, Hon. Mike:
    Letter for the Record........................................    59
Lingle Water Users' Association:
    Letter for the Record........................................    38
Lower Yellowstone Rural Electric Cooperative:
    Letter for the Record........................................    60
Manchin, III, Hon. Joe:
    Opening Statement............................................     2
McSally, Hon. Martha:
    Opening Statement............................................     1
Mercer, John R.:
    Letter for the Record........................................    62
Milk River Irrigation Project Joint Board of Control:
    Letter for the Record........................................    64
Montana-Dakota Sugarbeet Growers Association:
    Letter for the Record........................................    65
Montana Department of Natural Resources and Conservation:
    Letter for the Record........................................    66
Montana Farm Bureau Federation:
    Letter for the Record........................................    67
Montana Stockgrowers Association:
    Letter for the Record........................................    68
Montana Water Resources Association:
    Letter for the Record regarding S. 1305......................    69
    Letter for the Record regarding S. 1882......................    70
Moore, Hon. Eric:
    Letter for the Record........................................    71
(The) Nature Conservancy:
    Letter for the Record........................................    39
Northern Water:
    Letter for the Record........................................    41
Pathfinder Irrigation District:
    Letter for the Record........................................    43
Powell, Hon. Charles:
    Letter for the Record........................................    45
Richland County Commissioners:
    Letter for the Record........................................    72
Richland Economic Development Corp:
    Letter for the Record........................................    74
Savage Irrigation District:
    Letter for the Record........................................    75
Seitz Insurance Agency:
    Letter for the Record........................................    76
Sidney Sugars, Inc.:
    Letter for the Record........................................    77
Sidney Water Users Irrigation District:
    Letter for the Record........................................    78
St. Mary Rehabilitation Working Group:
    Letter for the Record........................................    80
Steinbeisser, Jim:
    Letter for the Record........................................    82
Treasure State Irrigation:
    Letter for the Record........................................    83
Twin Platte Natural Resources District:
    Letter for the Record........................................    47
U.S. Department of the Interior, Bureau of Reclamation:
    Letter for the Record........................................    87
Valley Farmers Supply:
    Letter for the Record........................................    84
Weaver, Kiel:
    Opening Statement............................................     3
    Written Testimony............................................     6
    Responses to Questions for the Record........................    91
Wyoming Water Development Commission:
    Letter for the Record........................................    49

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/6/subcommittee-on-water-and-power-legislative-hearing


                          PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 26, 2019

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Martha 
McSally, presiding.

           OPENING STATEMENT OF HON. MARTHA MCSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally [presiding]. The hearing of the Senate 
Energy and Natural Resources Subcommittee on Water and Power 
will come to order.
    Today's legislative hearing will provide an opportunity to 
receive testimony on six bills that will improve 
infrastructure, empower local water managers and provide 
greater supply certainty to water users in Colorado, Montana, 
Nebraska, North Dakota and Wyoming.
    I look forward to hearing from the Administration about its 
views on these measures and stand ready to work with my 
colleagues to move these important matters forward.
    In addition to our witness, we have received numerous 
written statements and letters of support from local 
stakeholders that will be included in the record.
    The need to develop and improve our water supply 
infrastructure, promote operational flexibility and local 
management, and provide the legal and regulatory certainty 
needed to unleash innovation and investment is certainly not 
unique to these six important bills.
    Throughout Arizona and across the West, new storage, 
conveyance and recycling projects are needed to increase 
drought resilience and provide the water security required to 
sustain growing populations and promote economic growth. There 
is also a tremendous need to reinvest in the water 
infrastructure our farms and cities were built upon, many of 
which are a century old.
    As a Chairwoman, I have made it a priority to address these 
important issues whether specific to Arizona or more broadly, 
with new tools that will benefit Western water projects across 
the board. To that end, later today I will be introducing my 
Water Infrastructure Rehabilitation and Utilization Act. This 
bill will allow water managers to access funds they need to 
repair and build aging facilities and promote efforts to 
utilize our existing surface storage facilities to the maximum 
extent possible.
    Combined with Senator Gardner's bipartisan bill, the 
Drought Resiliency and Water Supply Infrastructure Act, I co-
sponsored and introduced last week, we have a real opportunity 
to provide better water security and drought protection to all 
of our Western communities.
    With that, I will now turn to the Ranking Member, Senator 
Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Madam Chair.
    This morning the Subcommittee is considering a number of 
bills that seek to address various Bureau of Reclamation-
related issues affecting several Western states. Those of us 
who represent Western states understand that each state has its 
own unique water issues and history which for many of these 
Reclamation projects can date back a century or more.
    Many of these local irrigation and water conservancy 
districts are small operations that are facing constant 
challenges from drought and a changing climate. I appreciate 
that our colleagues are working to address their state-specific 
water and Reclamation issues.
    At the same time, I understand that several of these bills 
waive applicable Bureau of Reclamation and other laws or modify 
longstanding water contract terms in favor of local irrigation 
districts. I want to make sure that we are applying consistent 
standards on what laws and procedures should apply to 
Reclamation projects, even relatively small ones.
    So I am interested in learning more about these bills, and 
I look forward to working with you and our colleagues to 
address any other concerns.
    Thank you.
    Senator McSally. Thank you, Senator Cortez Masto.
    Our sole witness today is Mr. Kiel Weaver. Did I pronounce 
that correctly?
    Before turning to Mr. Weaver, I want to recognize Senator 
Manchin for an opening statement.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Just very quickly.
    Great, thank you, Madam Chairman, thank you. And thank you 
for being here, Mr. Weaver. I appreciate it.
    I want to thank you all for scheduling the hearing. Since I 
became Ranking Member of the Energy and Natural Resources 
Committee, I have been trying to learn more about the public 
lands and water issues facing Western states, coming from West 
Virginia and certainly the water issues out West are very 
different than what we have in my state.
    Looking through the bills on today's agenda, I have the 
same concern that Senator Cortez Masto just mentioned. I have 
the same concerns. They raise policy concerns by waiving 
Reclamation laws that generally apply to Western water 
projects, modifying contract terms or making other operational 
changes that may not be standard practice. I am curious why the 
Department supports some of the bills that give local water 
districts more flexibility or more favorable contract terms but 
opposes others that appear to have the same purpose. So I look 
forward to learning more about these issues and working with 
both of you and learning from you, Mr. Weaver, also on what the 
position is of the Agency.
    Thank you.
    Senator McSally. Alright, thank you, Senator Manchin.
    Our sole witness today is Mr. Kiel Weaver, the Principal 
Deputy Assistant Secretary for Water and Science at the 
Department of the Interior. He will present the 
Administration's views on the six bills before us today.
    Mr. Weaver, thanks for being here. You are recognized for 
five minutes.

STATEMENT OF KIEL WEAVER, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
     FOR WATER AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Weaver. Okay.
    Good morning, Chairwoman McSally, Ranking Member Cortez 
Masto, and Full Committee Ranking Member Manchin and members of 
the Subcommittee. I'm Kiel Weaver, Principal Deputy Assistant 
Secretary for Water and Science within the U.S. Department of 
the Interior.
    It's a pleasure and an honor to be back here. As many of 
your staff know, I've spent countless hours here in this room 
as both a former Senate and a former House staffer, but 
obviously, I'm here in a different capacity today.
    Thank you for the opportunity to provide the views of the 
Department on these bills. The Subcommittee has my written 
testimony, written statement, for the record so I will use my 
time to address a few key points.
    First, I will address S. 990, the Platte River Recovery 
Implementation Program Extension Act. The Platte River Recovery 
Program continues to be a success and a model for federal, 
state and local collaboration in order to protect water and 
power deliveries while improving endangered species within the 
Platte River Basin. In my time, in my 22 years on the Hill and 
within the Department, I've witnessed firsthand through my 
tenure that programs like this can be an anecdote to serial 
litigation while being a benefit to both people and species. S. 
990 reauthorizes the Interior Department's continued 
participation allowing for an extension of the program through 
2032. If the authorization expires, regulatory certainty for 
water and power users within the Platte River Basin could be 
lost, jeopardizing the continued operation of Reclamation and 
other projects in the Basin and have detrimental effects on the 
delivery of water and power to Reclamation customers.
    Next, I will address Senator Hoeven's S. 325, the Garrison 
Diversion Unit Project Oakes Test Area Conveyance Act of 2019. 
As we know, the bill authorizes the title transfer of the Oakes 
Test Area in North Dakota. The title transfer would allow the 
Dickey-Sargent Irrigation District to invest in major 
rehabilitation or improvement projects while decreasing the 
Federal Government's liability. The recently enacted John D. 
Dingell, Jr. Conservation, Management, and Recreation Act gave 
Reclamation broad title transfer authority. Given my House 
history on this topic, I'm honored to be the point person 
designated by Interior Secretary Bernhardt to implement this 
authority. We are moving quickly to implement this authority 
and working to determine whether this transfer can be 
accomplished under this authority. The Department supports 
title transfer of the Oakes Test Area and will continue to work 
with Dickey-Sargent and the North Dakota Delegation to 
facilitate this transfer.
    Next, I will address S. 860, the Jackson Gulch 
Rehabilitation Project Modification Act. Since 1963, the Mancos 
Water Conservancy District has performed operation and 
maintenance of the Mancos Project which includes the inlet and 
outlet canal systems and the Jackson Gulch Dam and Reservoir. 
S. 860 amends the Omnibus Public Land Management Act of 2009 to 
allow the District to credit their share of engineering work 
and improvements directly associated with the Jackson Gulch 
Rehabilitation Project in Colorado as part of the local cost 
share. The District has continued to expend funds on the 
rehabilitation and, subject to the availability of 
appropriations, Reclamation supports this proposal which 
provides additional flexibility to the District to rehabilitate 
the project's canal system.
    I will next address S. 1758, a bill to extend the repayment 
contract related to the Purgatoire River Water Conservancy 
District. This bill would provide additional authority to 
Reclamation to extend the contract term with the Purgatoire 
River Water Conservancy District from 75 to no more than 100 
years. It would also provide Reclamation the authority to 
execute excess capacity contracts with the District and other 
entities. Revenue derived from the excess capacity contracts 
would be allowed to be credited toward the District repayment 
or operation maintenance and rehabilitation obligation. While 
we are supportive of the sponsor's intent to provide additional 
revenue to the District, we have concerns with the bill as 
written, but want to work with Senator Gardner and the 
Committee on resolving those concerns.
    Finally, I will address S. 1305, the St. Mary's 
Reinvestment Act. This bill would reauthorize the Federal 
Government to provide 75 percent of the Milk River Project's 
overall operation, maintenance and replacement costs. The 
Department recognizes the importance of this federal project in 
serving the people of Montana and shares its concerns over the 
condition of these facilities and the adverse consequences that 
would come with the failure of the system. However, we have 
significant concerns with the bill as currently written and, 
therefore, cannot support it. Many years ago, I had the 
opportunity to travel to the Hi-Line in Montana as a Senior 
Staffer in the Montana Congressional Delegation. I know 
firsthand how important the project is to the local economy, 
and I know the hard-working nature of the family farmers in the 
region. So with that end, I look forward to working with the 
Montana Delegation and the Committee on these efforts.
    Again, thank you for the opportunity to testify. I would 
also like to thank the sponsors of these bills for their 
leadership on behalf of their constituents.
    The Department looks forward to working closely with the 
sponsors and the Committee on these bills.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Weaver follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
       
    Senator McSally. Thank you, Mr. Weaver.
    We will now turn to questions, and I will kick that off.
    I appreciate the work you do, and you mentioned 
implementing the new title transfer authority from the S. 47 
Lands bill. Many of us are watching closely as you are 
continuing to work on this program and the implementation to 
make sure it is not so narrowly interpreted it is not 
functional for most projects.
    The Oakes Test Area, for example, one of the bills before 
us today, certainly seems like the exact type of win-win title 
transfer we are trying to get at with this bill. Do you think 
it is possible that the Oakes Test Area can be transferred 
under the new authorities versus having to have new 
legislation?
    Mr. Weaver. Thank you.
    I can't guarantee an outcome to that effort, but I can 
guarantee an effort to try to get to that outcome.
    So there are a number of issues associated with the Dickey-
Sargent and Oakes Test Area. We need to determine in working 
with the delegation and Dickey-Sargent, what the valuation of 
the Oakes Test Area is. We also have some issues regarding 
exactly who manages the Oakes Test.
    But I will tell you, and Senator Hoeven knows this, that 
there have been a lot of productive conversations with Senator 
Hoeven and the Regional Director and the DC office about 
getting this done. You have our commitment to work to get this 
done.
    Senator McSally. Okay, great. I appreciate that. I mean, 
again, that is the intent of what was included in the Lands 
bill, right?
    We look forward to seeing where we can find examples where 
we don't literally need an act of Congress now on top of that.
    Mr. Weaver. Right.
    Senator McSally. But looking more broadly, can you share 
some of your next steps, in general, in implementation of the 
title transfer program, timelines, how we can make sure there 
are not too many hoops that projects have to jump through in 
order to take advantage of this new authority to make sure it 
is not impractical?
    Mr. Weaver. Sure. So what we've done in the past four 
months is we've done two things in regard to the passage of the 
law.
    One, we did a categorical exclusion for certain facilities. 
That's not going to apply to every facility. Each transfer is, 
frankly, unique. Every one will be different.
    But what we've also done is we wanted to get the ball 
rolling for things like Oakes Test and other areas. We did a 
temporary manual release which is basically how the Bureau of 
Reclamation implements a law. And we basically reiterated the 
points in the law so we could go forward with a plan to get, 
what I would call, low-hanging fruit done first.
    In the longer-term, what we're going to find is 
implementation over the title transfer process will include, in 
other words, how communication, in other words, how will the 
local office communicate to the regional office, how will the 
regional office communicate to the DC office and the Hill? For 
example, you know, under the law, we have to present you, as in 
the House and Senate, a 90-day, basically a report saying we 
want to transfer this facility and it has to stay here with the 
90 days. And if you don't disapprove, then we can go forward 
after those 90 days.
    So we have to figure out exactly how we communicate that 
with you, and we look forward to working with you all on that.
    Senator McSally. Great, thank you.
    A number of bills before us today are a symptom of a larger 
issue of aging infrastructure and the need to reinvest in our 
Bureau of Reclamation projects.
    As I mentioned, I am planning to introduce a bill today 
that will help water managers access funds they need to 
rehabilitate federally-owned projects that are operating and 
repay the costs in a way that keeps water affordable.
    Can you talk a little bit more broadly of the scale of the 
aging infrastructure challenge we have, some approaches that 
you are seeing Reclamation contractors take and what additional 
tools you think are needed to address the need for 
rehabilitation of facilities across the West?
    Mr. Weaver. Chairwoman, that's a great question and it's 
something, frankly, that Bureau of Reclamation focuses a lot 
on.
    As you know, the Bureau of Reclamation is 117 years old. A 
lot of our facilities, over 50 percent, are beyond 50 years or, 
I'm sorry, over 80 percent is beyond 50 years old. So right now 
our major rehab and rehabilitation needs are at $3 billion over 
the five-year period from FY19 to FY23. Over the 30-year period 
from FY19 to 2048, it's $10.4 billion. So we have a lot of work 
to do.
    And obviously, water and power customers benefit. The 
nation benefits from those projects. So, it's all intrinsically 
linked. And there are a number of solutions to this. Not one is 
a panacea, not one is a silver bullet but they all have to go 
together.
    One is, of course, more money. Another one could be title 
transfer. You know, there are some facilities, frankly, that 
the locals can manage better. They can leverage non-federal 
ownership for private dollars. Another one is a use of excess 
capacity revenue or including hydropower facilities in some of 
these canals and conduits and others to generate revenue. 
Another one is regulatory streamlining as well.
    There are some things where people have the money but they 
have a hard time getting a decision made because they have to 
go through the process. And some of the customers are talking 
about loan guarantees as well.
    So we look forward to working with you all on that, and I 
commend you for introducing this bill later today. We look 
forward to working with you on that.
    Senator McSally. Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Mr. Weaver, thank you for being here.
    Can you clarify for me, just, I may have missed it? So of 
the bills that are before us, the ones that you do not support, 
or the agency does not support, is S. 1305. Is that correct?
    Mr. Weaver. That's the St. Mary's one? Yeah. Yeah.
    Senator Cortez Masto. Yes.
    Any others that you do not support?
    Mr. Weaver. I think there are some concerns with a few of 
the others but yeah, there are some concerns with the 
contracting.
    Senator Cortez Masto. But not a full out, do not support?
    Mr. Weaver. That's correct.
    Senator Cortez Masto. Okay.
    So with respect to S. 1305, let me ask you this. You noted 
in your testimony that you have concerns and you do not support 
the bill's repayment terms because they depart from the 
traditional project repayment practice, namely that the project 
beneficiary should pay for operation and maintenance cost.
    If you don't support those changes, is the Department 
willing to work on recommendations and how to accomplish the 
very serious restoration project in this state?
    Mr. Weaver. Yes, I mean, like I said in my opening 
statement, I've been up to that part of the region, you know, 
given my past. There's a serious need up there. And to be 
honest, when the Chairwoman talks about aging infrastructure, 
boy, that really is a big deal up there. And it's, sort of, the 
canary in the coal mine in terms of aging infrastructure. So we 
look forward to working with the delegation on that bill.
    Senator Cortez Masto. Thank you.
    And then with respect to S. 860 which is the Jackson Gulch 
Rehabilitation Project. That one you do support but you do have 
concerns, is that correct?
    Mr. Weaver. That is correct.
    Senator Cortez Masto. And those concerns are what, 
specifically?
    Mr. Weaver. If I recall, one of the concerns is that the 
project repayment period is extended from, I believe, 15 to not 
more than 40. That's something we want to work with the sponsor 
on.
    Senator Cortez Masto. Is that something that departs from 
traditional project repayment practices of the Bureau?
    Mr. Weaver. Well, I would say this, Jackson Gulch was a 
unique process in the first place. In 2009 it was put into the 
public lands bill, and it was unique to begin with. And so this 
makes it even more unique.
    Senator Cortez Masto. So it does depart from the 
traditional repayment process that the Bureau is used to? Is 
that part of the concern?
    Mr. Weaver. In terms of operation and maintenance?
    Senator Cortez Masto. Yes.
    Mr. Weaver. Yes, it does. But I will say in the public 
lands bill, 111-11, which is some years ago, the bill allowed 
project repayment to occur over a 50-year period.
    Senator Cortez Masto. Okay.
    So is there a way that you are going to address your 
concerns there or really, it is, what we are doing is extending 
the payment over a longer period of time. Is that something 
that you are looking for, a shorter period of time, or you are 
going to support that?
    Mr. Weaver. I think what has to happen is we all need to 
sit down with your staff and the Republican staff and figure 
out the best way to go about doing that.
    Senator Cortez Masto. Okay, okay.
    Let me ask you then, jumping back to the Oakes Test Area 
Conveyance issue. Does it make sense for Congress to make the 
transfer before the negotiations are completed between the 
Bureau and the parties and the state?
    Mr. Weaver. Well, the Oakes Test bill sets up a process to 
get to the transfer. Currently, there's a Memorandum of 
Agreement on the general ability for the District to talk to 
the Federal Government. Following that, they have to make, do a 
title transfer agreement. Okay, once they--and then the bill 
sets that up. So you have to do a title transfer agreement and 
then things would go into place. So, it's just----
    Senator Cortez Masto. So the bill that we are talking about 
sets that up?
    Mr. Weaver. Yes.
    Senator Cortez Masto. It requires the transfer first before 
the parties even come to an agreement?
    Mr. Weaver. Well, there's right now a Memorandum of 
Agreement on terms of the general ability to talk. The title 
transfer agreement which the bill would authorize and set up a 
process for actually allows those folks to talk about specifics 
of the title transfer agreement.
    Senator Cortez Masto. So, let me ask you this. Have the 
conveyance details been worked out between the Interior 
Department and the Irrigation District?
    Mr. Weaver. I think we're discussing that right now, and 
Senator Hoeven will go into further detail about that. But we 
are discussing the specifics about that. There are some 
questions about how we would do that.
    Senator Cortez Masto. So the bill itself requires the 
transfer before the negotiations are even completed? Is that 
what I am understanding?
    Mr. Weaver. I think it requires people to come together to 
find a title transfer agreement which would then go forward 
with the title transfer.
    Senator Cortez Masto. Yes, no, I am looking at the bill 
itself and I look at page three, line seven and this is why I 
am just asking for clarification. It says that, ``As soon as 
practicable after the date of enactment of this Act, the 
Secretary shall convey to the District, all right, title, and 
interest of the United States in and to the Oakes Test Area, . 
. . '' I am just trying to get a better understanding. What I 
understand from this bill is the transfer occurs before the 
negotiations are even completed.
    Mr. Weaver. Well, oftentimes, what has happened, there have 
been about 30 title transfers since around 1993. In the House 
side I had to deal with a lot of those. And what happens is the 
irrigation district and the Federal Government come to an 
agreement and the bill, sort of, codifies that agreement and 
then goes into as soon as practicable language. So you have to 
have an agreement first before everything is effectuated.
    Senator Cortez Masto. Right. But this does not appear to be 
the case. But listen, that is why we're here----
    Mr. Weaver. Okay.
    Senator Cortez Masto. ----to have this conversation and 
hear what is going on and I appreciate it. Thank you.
    Mr. Weaver. Thank you.
    Senator McSally. Senator Hoeven.
    Senator Hoeven. Glad I came.
    I would like to thank the Secretary and Regional Director 
and yourself for working with us.
    The intent with this legislation is to make sure that we 
have the authority for you to make the transfer. We felt we had 
originally provided that authority in the John D. Dingell, Jr. 
Conservation, Management, and Recreation Act, but it was only 
when the Bureau expressed some concern that the authority might 
not be there that we are doing this belt-and-suspenders 
approach. Fortunately, thanks to the good work by Interior and 
we have done a lot of work on this legislation, it appears we 
have the authority which is what we contemplated under the John 
Dingell Act.
    But again, this was just put in as a precaution or an 
additional bill to make sure if we were lacking, or if Interior 
was lacking, the authority to make the transfer, that we had 
it.
    Now if there is some concern with how we worded this 
legislation, we are happy to accommodate in order to move it. 
At this point, we hope we really won't need to move it because, 
again, this is our second time around simply trying to make 
sure that you have the authority to do so.
    In fact, we have engaged in extensive negotiations for 
conveyance and the terms of the conveyance. We are pleased that 
Interior has essentially agreed to the plan we have laid out, 
but we have been negotiating price and terms and conditions and 
all the things that go into any one of these transfers.
    And again, this legislation is really just provided in 
addition or as a follow-up to the Dingell Act in case Interior, 
for any reason, or your attorneys, for any reason, had 
determined that there was not sufficient authority.
    I talked to the Regional Director yesterday. He indicated 
he thinks we have the authority under the Dingell Act, just 
like we do for the other properties that are being discussed 
here. And so, we should be fine.
    But again, this is additional legislation to make sure, if 
there is some lack of authority, that we have it.
    Now if the Committee has some concerns, we are happy to 
work to accommodate. But again, at this point, we hope we don't 
even need the bill because we are doing it--you know, there's a 
lot of us that worked on the John Dingell bill to make sure the 
authority is there. And I am pretty sure not everybody is going 
to have to come back and pass another bill to make sure that 
that authority is there. In essence, that is what we thought we 
were going to be forced to do. Now we are glad we are not. I 
doubt any member of this Committee or the larger Committee or 
the body as a whole would be very happy with having to do it 
twice. Obviously, we were not, so we are glad that you found 
that there is the authority there.
    So, I really, at this point, don't have questions for you 
or anything else, other than I would offer to work with the 
Committee members, however I need to, if there is any concern 
regarding how we have crafted this.
    We won't drop this legislation until we effectuate the 
transfer first, then we won't proceed with the legislation. But 
otherwise we would proceed with the legislation.
    At this point I would turn to the Ranking Member, I think, 
rather--I think Interior has answered my questions. So I am 
here mainly to say thank you to you and also to Regional 
Director Black and to Secretary Bernhardt.
    I would turn to the Ranking Member and ask if there are 
other questions or concerns that either she or the Chairwoman 
of this Committee have because I would be happy to work with 
you on it. Okay?
    Again, thank you.
    Senator McSally. Alright, thank you.
    Senator Manchin.
    Senator Manchin. Thank you.
    Mr. Weaver, I am trying to learn about how the West 
operates, because it is completely foreign to the East.
    Mr. Weaver. Well, they might want some of your water.
    [Laughter.]
    Senator Manchin. We would love to. We are going to sell it 
to you. We are not going to give it to you.
    Anyway, all these projects we are talking about here, and I 
have the Oakes Test, I have Jackson Gulch, Platte River 
Recovery, all the bills we have in front of us, as you know, 
Milk River, Purgatoire River and Pick-Sloan Missouri--these 
were all built with federal dollars, correct?
    Mr. Weaver. Correct. Federal and a combination of local and 
state.
    Senator Manchin. But the local and state was more or less a 
loan. The federal, probably up fronted most of it, correct?
    Mr. Weaver. Yeah, especially under the older projects.
    Senator Manchin. So the loan projects, basically, might 
have been a typical 40-, 50-year. I understand we have extended 
some of them.
    Mr. Weaver. Correct.
    Senator Manchin. So just explain to me the purpose other 
than trying to give some relief. Is the purpose to where these 
irrigators are not going to make it, is it too much of a burden 
or do they just want relief because they can get political 
relief?
    Mr. Weaver. I think it depends on, frankly, the project.
    Senator Manchin. I am saying, can you tell me any of these 
here, if these bills do not pass, if none of this would pass, 
tell me which one is in jeopardy of collapsing, going away, not 
being maintained and not being operational? Are there any one 
of them?
    Mr. Weaver. Out of these, you know, I know the folks with 
the, that are served by the Purgatoire----
    Senator Manchin. Okay.
    Mr. Weaver. ----the Purgatoire Water Conservancy District 
have some repayment issues. I know that they----
    Senator Manchin. Did Purgatoire already go to 70 or 75 
years?
    Mr. Weaver. It went from, if I recall, 70 to 75.
    Senator Manchin. And they started out with 50.
    Mr. Weaver. That's correct, yup.
    Senator Manchin. I mean, is it basically they just don't 
want to pay or that money is not there for it or what is the 
purpose?
    Mr. Weaver. I'd have to talk to the sponsor about that to 
be totally candid.
    Senator Manchin. And he is not----
    Mr. Weaver. But the bottom line is that they are having 
repayment issues from what I understand. So, the sponsor, you 
know----
    Senator Manchin. He probably has a request from his 
constituents.
    Mr. Weaver. Yeah, sure.
    Senator Manchin. We can't pay, so we are going to stretch 
this out.
    Okay, how about Milk River?
    Mr. Weaver. Milk River has very similar issues. As I 
indicated I've been up there quite a bit and----
    Senator Manchin. But you are not favorable to that one?
    Mr. Weaver. The Administration's position is currently not 
supporting that one.
    Senator Manchin. Why do you not want to help Milk River, 
but you are in good shape on Purgatoire?
    Mr. Weaver. Well, we have concerns with both bills, I 
guess.
    Senator Manchin. Okay, then let's go to Pick-Sloan.
    Mr. Weaver. The Pick-Sloan bill, we do not have a position 
on that because we were not given adequate time to have a 
position on that.
    Senator Manchin. How about Oake Test?
    Mr. Weaver. Oake Test, we generally support the concept of 
title transfer. That doesn't involve any rates or repayments.
    Senator Manchin. It doesn't seem--non-confrontational, 
okay.
    Mr. Weaver. Right.
    Senator Manchin. Jackson Gulch?
    Mr. Weaver. Jackson Gulch, as I indicated, they're, you 
know, it does extend the repayment term from 15 to up to 40. We 
would like to work with the sponsor and the Committee on that 
bill.
    Senator Manchin. Has it changed the federal position at 
all?
    Mr. Weaver. What's that?
    Senator Manchin. Has it been based on scoring or, you know, 
I am sure that whenever this was done there had to be a score 
done on that. So who eats that one?
    Mr. Weaver. Well, the way it works with irrigation 
districts is there is no interest charged to irrigation 
districts as opposed to municipal and industrial and power 
customers. So the question would be if you extend it from 15 to 
up to 40, it's the value of money over time.
    Senator Manchin. True.
    Mr. Weaver. Not necessarily interest.
    Senator Manchin. I am just saying that the Federal 
Government Treasury scores that. I mean, right? CBO has to 
score it.
    Mr. Weaver. Yes, we haven't seen the score, of course, 
but----
    Senator Manchin. Okay, so you don't have a score on that 
one yet.
    Mr. Weaver. Correct.
    Senator Manchin. On any of these then, right?
    Mr. Weaver. Correct.
    Senator Manchin. Okay.
    And how about Platte River?
    Mr. Weaver. Platte River, we're supportive of that. Like I 
said in my opening statement, that is a model for how things 
can get done collaboratively. You know, that's the three states 
and Senator Barrasso will discuss this. The three states pay 
for quite the majority of that program with water, with dollars 
and with other things.
    Senator Manchin. I understand it takes an additional $78 
million from federal funds?
    Mr. Weaver. Correct.
    Senator Manchin. That is above the $157 million that has 
already been authorized?
    Mr. Weaver. That's correct because the bill adds another 13 
years.
    Senator Manchin. And the states are going to contribute 28 
above the 30?
    Mr. Weaver. Correct and they contribute water as well, a 
substantial amount of water.
    Senator Manchin. Okay, I am still learning.
    Thank you.
    Mr. Weaver. Happy to come talk to you anytime.
    Senator Manchin. [off mic]
    Mr. Weaver. Okay, thank you.
    Senator Manchin. [off mic]
    Mr. Weaver. Right.
    Senator McSally. Come out and visit, Senator Manchin.
    Senator Manchin. [off mic]
    Senator McSally. Especially in the winter, probably.
    Alright, Senator Barrasso.
    Senator Barrasso. Well, thanks so much, Chairman McSally, 
thank you, Ranking Member Cortez Masto, for holding this 
important hearing today and thank you, Mr. Weaver, for your 
testimony and for helping Senator Manchin in having a better 
understanding of the issues that we face in the West and the 
cooperative nature, Republican or Democrat, of solving these 
problems because this is three governors working together to 
solve an important issue and from both parties and, as you see, 
this bill that I have introduced is co-sponsored by members 
from both sides of the aisle.
    Today I would like to briefly discuss this bill, S. 990, 
the Platte River Recovery Implementation Program Extension Act. 
It is a cooperative agreement between Wyoming and Colorado and 
Nebraska with a number of the stakeholders in each state.
    It is focused on the Endangered Species Act compliance on 
the Platte River while allowing new and existing water use and 
development through a streamlined consultation process. The 
program provides conservation benefits to four targeted species 
through land, water and adaptive management goals. The four 
target species include the endangered whooping crane, the 
interior least tern, the pallid sturgeon and the threatened 
piping plover. For people who don't follow that, those are 
three birds and one fish. While working to assist with the 
recovery of the four target species, this bill provides water 
users in Colorado and in Wyoming and in Nebraska with the 
regulatory certainty and Endangered Species Act compliance.
    It is a 50/50 cost sharing program. Federal funds are 
matched by state funds and state contributions of water and of 
land, as Mr. Weaver has testified.
    The Governance Committee makes decisions by consensus and 
is one of the only recovery programs in the country that uses a 
shared decision-making structure that includes the stakeholders 
and, as you point out, the program is working.
    Accomplishments in the first increment include: 12,000 
acres of habitat lands have been acquired by the Platte River 
group and are currently being managed to benefit the four 
target species; approximately 90,000 acre-feet per year of 
secure water supplies have been acquired and developed and are 
being used to supplement flows in the Central Platte River; 
adaptive management research is improving our knowledge of how 
best to recover target species; streamlined ESA compliance 
consultations have been used to approve nearly 200 water 
projects; and progress is being made toward downlisting of the 
least tern.
    So the governors of the three states are involved, Governor 
Gordon of Wyoming, Governor Polis of Colorado, and Governor 
Ricketts of Nebraska. They described the program in a recent 
joint letter, three of them together, bipartisan, wrote a 
letter that said, ``The program is a marquee example of a 
proactive, collaborative approach to providing benefits for 
endangered species and their habitat while allowing for the 
beneficial use of our states' waters.''
    This critical program is set to expire at the end of this 
year, and the bill would extend the first increment of this for 
an additional 13 years. The critical program, so it is set to 
expire. We need to do this before the end of the year.
    I want to thank all of the Senators of the three states, 
who co-sponsored the legislation, and I also want to thank the 
states of Wyoming and Colorado and Nebraska and all the 
stakeholders who have made the Platte River Recovery 
Implementation Program a success.
    I have a whole list of groups and ask unanimous consent to 
enter into the record these letters of support from lots and 
lots of different groups.
    Senator McSally. They will be included in the record.
    [Letters in support of S. 990 follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Barrasso. I am looking forward to working with the 
Committee.
    But if I could just ask you, Mr. Weaver, in the little time 
we have left. So we talked a lot today about the implementation 
of this Platte River Recovery Implementation Program. It is 
critical for Wyoming, Colorado and Nebraska--all of the 
stakeholders who have worked so hard to make it a success. Its 
success is unquestioned, but the future, as you put, is 
uncertain and with the current authorization set to expire at 
the end of this year.
    Can you take a moment to just expand on your written 
testimony where you describe the risks that are associated if 
we fail to authorize this program and what it would mean if 
this program were ended in terms of water users and the 
projects in the three states that we are looking at?
    Mr. Weaver. Thank you for the question, Senator Barrasso. 
It's a good one because it's something that, you know, over the 
last 13 years there have been a lot of successful, 
collaborative projects going on.
    And more importantly, it provides a lot of regulatory 
certainty for, you know, the hundreds of water and power users 
and the Bureau of Reclamation as well as other agencies.
    So if this expires, that regulatory certainty will be gone. 
And that, what it would mean by that is if you have regulatory 
uncertainty that means, for example, if you, Reclamation, for 
example, goes to, it has to consult with the Fish and Wildlife 
Service on those four species in terms of operations of Glendo 
and other facilities on the North and South Platte and that re-
consultation provides a lot of uncertainty and, to be honest, 
it could increase the cost for ratepayers, both water and power 
ratepayers.
    So, you know, I was around on the House side when this was 
originally created, and this has been a model of success. It's 
a model of collaboration, and we need to make sure it stays.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    Senator McSally. Senator Daines.
    Senator Daines. Thank you, Chairwoman McSally.
    Agriculture is our number one economic driver in Montana, 
and a reliable water supply for irrigation is absolutely 
critical for our farmers and ranchers. Without water we don't 
have an ag industry in Montana. The two Montana-specific bills 
before this Committee today are important to ensure that they 
both have a reliable supply of water and an affordable power 
for irrigation.
    Senate bill 1882, which I introduced just last week, would 
ensure that Kinsey Irrigation Company and the Sidney Water 
Users Irrigation District would continue to be eligible for 
project use power under the Pick-Sloan Missouri Basin program. 
Kinsey and Sidney have had access to Pick-Sloan power for more 
than 70 years, and the contracts have been modified and renewed 
multiple times throughout this period. However, the Bureau of 
Reclamation has notified both projects it does not have the 
authority to renew the contracts. So passage of this 
legislation is critical to ensure that Kinsey and Sidney do not 
face cost increases of 1,900 and 3,200 percent, respectively. 
That is not a typo.
    Senate bill 1305, which I introduced with Senator Tester, 
would alter the federal cost share for the Milk River project, 
one of the Bureau of Reclamation's oldest projects, having been 
authorized in 1903, and is in dire need of rehabilitation. The 
water from this project is used to irrigate more than 120,000 
acres of land and provides water for roughly 18,000 people.
    I would ask unanimous consent to include for the record 
letters of support for both pieces of legislation.
    Senator McSally. Without objection.
    [Letters of support for S. 1882 and S. 1305 follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
       
    Senator Daines. Mr. Weaver, as mentioned in my opening 
statement, Kinsey and Sidney are currently receiving Pick-Sloan 
power and have been for more than 70 years. My bill would 
simply preserve the status quo, not add new projects to the 
mix.
    My question is this. Would enacting Senate bill 1882 have 
any negative impact to other users of Pick-Sloan project use 
power?
    Mr. Weaver. Well, as you know, Reclamation is currently 
providing project use power to both districts. I believe those 
contracts would expire in December 2020. So if your bill is 
enacted and it continues that, then it continues the status 
quo. So there would be no increased power rates or decreased 
power rates or increased water rates.
    Senator Daines. Alright, thank you.
    So it would not have any negative impact to other users?
    Mr. Weaver. Yes, it would not.
    Senator Daines. Okay, thank you.
    Are you aware of the devastating impacts to these districts 
if these contracts were not able to be renewed?
    Mr. Weaver. Yes. I, too, have seen those statistics and 
they weren't typos.
    Senator Daines. Thank you.
    There are a lot of zeroes on those percent increases.
    While most of the conversations we discuss are 
infrastructure in this nation and the need to invest in 
infrastructure, it focuses on roads, on bridges, airports, is 
very important.
    But in Montana in the West, it is crumbling water 
infrastructure like Milk River, that is the most direct threat 
presently to our way of life. I appreciate you noting that in 
your testimony, the importance of this project and the adverse 
consequences should the system fail.
    My last question is this, Mr. Weaver. Can you commit to 
working with us to address these issues and come up with a 
workable solution to fix our aging water infrastructure?
    Mr. Weaver. So, you know, many, many years ago when I was 
on the House side, I worked for one of your predecessors, Rick 
Hill, and I remember the St. Mary's unit coming up then. This 
was in the late '90s. So this whole project is a microcosm of 
aging infrastructure. It's, like I said earlier, it's the 
canary in the coal mine, and it's just symbolic of the problems 
that we face here.
    I've been to the Hi-Line. I've been to Havre. I've been to 
a lot of places up there in my past life. They're hard-working 
people up there, you know. This is one of these things where we 
do want to work, we want to work with all the Committee and all 
the sponsors of these bills, including yourself, to get to some 
resolution.
    Senator Daines. Thank you.
    Your background and personal engagement in the past is 
going to be welcome news to the folks up in the Hi-Line that we 
are bringing these bills forward to on their behalf.
    So thank you, I appreciate your comments.
    Mr. Weaver. I was much lighter back then so they might not 
recognize me.
    [Laughter.]
    Senator Daines. Thank you. We will have to get you up there 
again.
    Thanks.
    Senator McSally. Thanks, Senator Daines.
    Before we wrap up, I would like to make the request of the 
Department to submit written testimony for S. 1882 for the 
record.
    It is disappointing that we do not have it for the hearing 
so members can ask questions they may have. But can you please 
provide the Administration's view on that bill for the record?
    Mr. Weaver. I will work with the Congressional Affairs 
folks to do that.
    Senator McSally. Great, thank you.
    [Written testimony for S. 1882 from the Department of the 
Interior follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Senator McSally. Thanks for being here to testify on the 
bills.
    Questions for the record may be submitted before close of 
business on Thursday.
    The record will remain open for two weeks. We ask you 
respond as promptly as possible and responses will be made a 
part of the record.
    Thank you again.
    The hearing is now adjourned.
    [Whereupon, at 10:44 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


</pre></body></html>
